OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SOUTHERN
AFRICA’S USE OF WAIVERS
FROM FULL AND OPEN
COMPETITION FOR HIV/AIDS
PROGRAMS
AUDIT REPORT NO. 4-674-13-007-P
MARCH 20, 2013




PRETORIA, SOUTH AFRICA

	
	


Office	of	Inspector	General


March 20, 2013

MEMORANDUM

TO:       	          USAID/Southern Africa Mission Director, Jeff Borns

FROM: 	              Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:	            Audit of USAID/Southern Africa’s Use of Waivers From Full and Open
                     Competition for HIV/AIDS Programs (Report No. 4-674-13-007-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety (without the
attachment) in Appendix II.

The report includes one recommendation to strengthen USAID’s use of waivers from full and
open competition. We acknowledge that a management decision has been reached and final
action has been taken on this recommendation. Therefore, this recommendation is closed upon
report issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     USAID Complied With Requirements for Use of Exceptions to Competition .......................... 4 


     Mission Did Not Report Use of Waivers Completely or Accurately ......................................... 5 


Evaluation of Management Comments..................................................................................... 7 


Appendix I—Scope and Methodology ...................................................................................... 8 


Appendix II—Management Comments ................................................................................... 10 

SUMMARY OF RESULTS 

Although USAID policies generally encourage the use of competition, the Agency has allowed
limited or no competition in awarding HIV programs based on “the urgent need to meet . . .
ambitious targets” for more than a decade. On December 19, 2000, the USAID Administrator
signed a memorandum that, among other things, allowed for the use of other than full and open
competition for grants, cooperative agreements, and contracts. This memorandum noted that
the waivers to competition would “remain in force throughout the life of the [HIV/AIDS Strategy],
estimated to be through the year 2007.”

On December 20, 2007, the Administrator signed a new memorandum that extended the
waivers to competition until December 31, 2013. The waiver signed in 2000 anticipated the HIV
program budget to be no more than about $530 million annually, whereas the one signed in
2007 anticipated the budget would average $6 billion per year from 2008 to 2013.

At the same time it was increasing spending on HIV programs, USAID was allocating a much
higher proportion of funding to programs awarded by overseas missions. The Government
Accountability Office reported, “[Acquisition and assistance] obligations overseas increased by
600 percent, from about $1 billion in fiscal year 2002 to about $6 billion in fiscal year 2008.”1

The combination of these factors greatly increased the applicability of the HIV waiver at
USAID/Southern Africa’s Regional Acquisition and Assistance Office (RAAO). As of December
2012, RAAO had eight contracting officers that supported missions in Angola, Malawi,
Madagascar, Namibia, South Africa, and Zimbabwe, as well as Botswana, Lesotho, and
Swaziland (where USAID operates programs but does not maintain a mission). USAID’s HIV
programs in these countries help prevent HIV transmission, provide care and treatment to
people with HIV, and strengthen health-care systems. In fiscal years 2011 and 2012, RAAO
issued new awards or modifications to existing awards that included HIV components worth
almost $2.4 billion.

The HIV waiver is not the only exception to competition available. Agency policies allow
contracting officers to waive competition for cooperative agreements, including awards to public
international organizations,2 follow-on awards and extensions, small grants (worth less than
$150,000), awards to the only organizations capable of doing the work, awards that meet critical
foreign assistance objectives, and awards to small businesses.

The use of waivers—and RAAO activities overall—have been affected by implementation and
procurement reform (IPR), which is part of a set of reforms known as USAID Forward, launched
in August 2010. IPR has six objectives:

1. Strengthen partner country capacity by increasing use of reliable partner country systems.

2. Strengthen local civil society and private sector capacity.


1
   Government Accountability Office, USAID Acquisition and Assistance: Challenges Remain in
Developing and Implementing a Strategic Workforce Plan (GAO-09-607T), April 2009.
2
  According to ADS 308.3.1.1, a public international organization is one that is composed principally of
countries, such as the World Bank Group and the United Nations.


                                                                                                      1
3. 	 Increase competition and broaden USAID’s partner base.

4. 	 Use U.S. Government resources more efficiently and effectively.

5. 	 Improve collaboration with bilateral donors and multilateral and international organizations.

6. 	 Improve USAID’s internal technical capacity.

Related to the first objective, on August 16, 2011, USAID issued ADS 220, “Use of Reliable
Partner Country Systems for Direct Management and Implementation of Assistance.” This
guidance notes, “Competition is not required prior to entering into bilateral agreements for the
use of partner country systems.”

The Regional Inspector General/Pretoria (RIG/Pretoria) conducted this audit with the following
objectives:

	 Did USAID/Southern Africa appropriately use waivers from full and open competition in its
   acquisition and assistance process for HIV/AIDS programs?

	 How could the Agency’s IPR affect the use of waivers from full and open competition in
   USAID/Southern Africa’s acquisition and assistance process for HIV/AIDS programs?

Overall, the audit found that USAID/Southern Africa was using waivers appropriately and that
RAAO generally complied with the requirements stated in the HIV waiver. However, the
requirements only dictated what RAAO needed to do when the waiver was used, not how to
determine whether it should be used. Additionally, while the audit focused on the HIV waiver—
the most commonly used exception to competition—RAAO used other exceptions. The audit
found that RAAO complied with the various rules and regulations for these exceptions as well.

Regarding the second objective, IPR’s most significant impact on the use of waivers is the
increased use of local organizations. Many of the new awards issued for HIV programs in South
Africa were limited to local organizations, including 11 in the audit sample. Although the
competition was technically limited, the number of capable civil society organizations in that
country led to robust competition. USAID/Southern Africa negotiated 14 awards worth more
than $530 million in August and September 2012, and some of these received as many as
45 applications. Although limiting awards to local organizations in other countries could limit
competition significantly, even limited competition would increase competition compared with
issuing sole-source awards based on an exception.

The other area of IPR that could affect the use of waivers is the increased use of host-
government systems. USAID missions in South Africa and Malawi determined that they could
implement programs through their respective host-country governments, although neither had
arranged the details of the programs. However, giving more funds to host-country governments
could eventually reduce the use of both the HIV waiver and competition by having less funding
available for programs implemented by nongovernmental organizations, for-profit companies,
and public international organizations.

Although waivers generally were used in accordance with rules and regulations, we found the
following problem.




                                                                                                     2
	 Reporting to the agency competition advocate3 about the use of waivers was not complete
   (page 5). The advocate collects information annually from missions about the use of waivers
   from competition to prepare a report for Congress. The information that USAID/Southern
   Africa submitted was neither complete nor accurate because RAAO used inadequate
   procedures to prepare the report. As a result, Congress did not have comprehensive,
   correct information about the Agency’s use of waivers to competition.

To improve the reporting, we recommend that USAID/Southern Africa:

1. 	Review its procedures for reporting exceptions to competition to the agency competition
    advocate and implement a documented plan to improve the relevance, reliability, and
    timeliness of these reports (page 6).

The detailed finding appears in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of them is on page 7.




3
 The agency competition advocate is a position required by Federal Acquisition Regulation 6.501. Among
other things, the advocate is responsible for promoting full and open competition, including identifying
new initiatives to increase it.



                                                                                                      3
AUDIT FINDINGS 

USAID Complied With Requirements
for Use of Exceptions to Competition
Waivers from competition for the main types of awards issued by USAID—grants, cooperative
agreements, and contracts—are authorized by several federal statutes. For grants and
cooperative agreements, the USAID Office of General Counsel stated that the USAID
Administrator has the authority to waive competition requirements because the Federal Grant
and Cooperative Agreements Act of 1977 encourages, but does not require, competition for
these awards. For contracts, the Office of General Counsel said the Administrator could waive
competition requirements because they do not apply to foreign aid, relief, and rehabilitation
programs.4 Despite the possibility of waivers under these statutes, USAID has made the policy
choice that it will require competition unless there is a documented exception. Because this is
merely a USAID policy choice, the possibility remains that the Administrator could eliminate this
competition requirement, as was done with the HIV waiver.

Use of the HIV waiver required RAAO to:

1. 	 Notify the agency competition advocate when competition was waived for contract actions5
     worth more than $100,000 (this does not apply to cooperative agreements or grants).

2. 	 Limit extensions for cooperative agreements and grants to no more than 2 years.

3. 	 Justify its use in writing.

Notably, the only requirement for electing to use the HIV waiver was that the agreement had a
HIV component.

Overall, we found that USAID/Southern Africa complied with the requirements for use of waivers
from competition. This audit selected a random sample of 68 acquisition and assistance actions,
worth more than $1.7 billion, from a total of 121 actions worth almost $2.4 billion that RAAO
completed in fiscal years 2011 and 2012.

RAAO chose not to seek bids for 20 of the 50 actions in the sample that would have triggered
competition, such as modifications of existing contracts that increased the cost ceiling, changed
the scope of work, or extended the period of performance (except for one-time, no-cost
extensions of 1 year or less). However, these 20 actions represented only 15 percent of the
dollar value of the sample. Of these actions, the HIV waiver was cited eight times, making it the
most commonly used exception to competition, as show in the table on the next page.



4
  The Competition in Contracting Act of 1984 modified the Federal Property and Administrative Services

Act of 1949, stating that, with a few exceptions, executive agencies shall use full and open competition to

issue contracts. However, there is an exception to the Federal Property and Administrative Services Act, 

including the section modified by the Competition in Contracting Act, for “foreign aid, relief or rehabilitation

programs,” provided that the agency adheres to the act as much as possible.

5
  The award and modification of grants, cooperative agreements, and contracts are referred to as actions. 



                                                                                                              4
                  Exceptions to Competition Cited by USAID/Southern Africa
 Exception Cited                         Instances       Value of Actions ($)      Average Value ($)
 HIV waiver                                   8                63,190,758                7,898,845
 Public international organization            4                 8,179,633                2,044,908
 Follow-on award or extension                 3                10,550,823                3,516,941
 Small grant                                  2                   129,000                   64,500
 Exclusive capability                         1                   300,000                  300,000
 None cited*                                  1                 1,984,520                1,984,520
 U.S.-based small business                    1                 3,182,154                3,182,154
 Total                                       20                87,516,888               4,375,844**

* The agreement officer said the documentation did not need to cite an exception because USAID had

reduced the cost ceiling before the modification, and the modification did not increase the amount beyond

the original ceiling. However, the documentation did not explain why this increase was needed. 

**
   This is the average value of each action, not the sum of the average value column. 


We found that the sample included actions that involved robust competition, actions in which
waivers were used in the best interest of U.S. foreign policy, and actions in which the need for
the HIV waiver was not clear. In one example of using a waiver in the best interest of U.S.
foreign policy, RAAO waived competition when it increased an award’s cost ceiling because
USAID asked the program to support a South African Government initiative to increase the
number of men getting circumcised in health-care facilities. Because of this initiative, the
program was projected to exceed its cost ceiling before the end of the agreement. This
exception was consistent with the HIV waiver, which allows noncompetition to “quickly respond
to changing assistance priorities,” like male circumcision.

However, in an example of RAAO not documenting the need to waive competition,
USAID/Southern Africa extended a program for 6 months and increased the cost ceiling by
$25 million, which was the same as the average program costs for a 6-month period under the
original agreement. The justification for the exception did not list any changes or emergencies
that necessitated the extension. In another example, an award was issued for a program in
Namibia without competition for 1 year to allow RAAO to compete a subsequent award for the
program. However, at the end of the year RAAO extended the award for 1 year and added
$3.18 million to the cost ceiling—again without competition.

Notwithstanding these isolated examples, in general the mission’s use of waivers was generally
in accordance with the relevant current criteria.

Mission Did Not Report Use of
Waivers Completely or Accurately
A 1981 amendment to the Foreign Assistance Act of 1961 (22 U.S.C. 2394) instructed USAID to
include in an annual report to Congress the dollar value of all contracts worth more than
$100,000 entered into without competition and the reason for doing so. According to the agency
competition advocate, this amendment was clarified in the 2006 House Appropriations
Committee Report for Public Law 109-152, which explained that Congress is interested in
grants and cooperative agreements, as well as contracts.




                                                                                                        5
To meet these requirements, the advocate asks RAAO for annual reports about the use of
exceptions to full and open competition. Despite Congress’s interest in waivers for awards worth
more than $100,000, the reports RAAO sent to the advocate were not complete or accurate. Of
the five sample actions that RAAO should have reported to the advocate because they used the
HIV waiver, the mission did not report two and reported another as almost $6 million less than
the actual amount.

Problems with two of these actions stemmed from inadequate procedures that RAAO used to
prepare the report. One was not reported because USAID’s Global Acquisition and Assistance
System generated acquisition and assistance action information by contracting officer instead of
by mission. Therefore, the actions managed by a contracting officer who left the mission during
the fiscal year did not show up in the system and were therefore not in RAAO’s report. In the
case of the second action, a RAAO official said the amount was underreported by almost
$6 million probably because the office incorrectly used a planning figure that was not updated.

In addition, RAAO excluded an action based on the advocate’s instructions not to include any
that increased the cost ceiling but obligated less than $100,000. RAAO correctly excluded a
fiscal year 2011 modification that increased the cost ceiling by $8 million, but did not obligate
any funds. The advocate explained that when she became responsible for this report, she was
told that Congress was only interested in obligations.

Although RAAO complied with the advocate’s guidance, excluding an action like this
modification gives an incomplete picture of how USAID is using exceptions to competition. As of
the end of fiscal year 2012, RAAO had obligated almost $6 million of the $8 million cost ceiling
increase, but because mission officials did not increase the cost ceiling in the same
modification, these obligations did not need to be reported to the advocate. Therefore, by basing
the actions reported on a minimum obligated amount, USAID has inadvertently excluded
information that would otherwise be applicable to this Congressional request.

Without relevant, reliable, and timely information about how USAID is using exceptions to
competition, Congress cannot determine the impact the HIV waiver has on acquisition and
assistance activities at USAID. Accordingly, this audit makes the following recommendation.

   Recommendation 1. We recommend that USAID/Southern Africa review its procedures
   for reporting exceptions to competition to the agency competition advocate and
   implement a documented plan to improve the relevance, reliability, and timeliness of
   these reports.




                                                                                               6
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Southern Africa agreed with the recommendation to
review its procedures for reporting exceptions to competition and to implement a documented
plan to improve the reporting. The mission reviewed its procedures and issued a memorandum
to all RAAO employees on March 11, 2013, explaining how the office will prepare these reports.
Therefore, a management decision has been reached and final action has been taken.




                                                                                            7
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objectives of this audit were to determine the following:

	 Did USAID/Southern Africa appropriately use waivers from full and open competition in its
   acquisition and assistance process for HIV/AIDS programs?

	 How could the Agency’s IPR affect the use of waivers from full and open competition in
   USAID/Southern Africa’s acquisition and assistance process for HIV/AIDS programs?

As of December 2012, RAAO provided contracting support for USAID missions in Angola,
Malawi, Madagascar, Namibia, South Africa, and Zimbabwe, as well as support for Botswana,
Lesotho, and Swaziland. In fiscal years 2011 and 2012, RAAO issued 121 new awards or
modifications to existing awards that included HIV components worth almost $2.4 billion. We
randomly selected 68 of those that related to agreements worth more than $1.7 billion for
review. This sample size represents a 95 percent confidence level and 4 percent margin of
error.

In planning and performing the audit, we reviewed the laws, regulations, and policies related to
use of waivers from competition related to HIV/AIDS programs. This included extensive
discussion with attorneys in the regional legal office in South Africa and Office of the General
Counsel in Washington, D.C. We also assessed RAAO’s significant internal controls, including
controls related to the office’s organizational structure, planning, monitoring, reporting, and the
review the office conducted in compliance with the Federal Managers’ Financial Integrity Act of
1982.6

Audit fieldwork was conducted from October 4 to December 6, 2012. The audit team met with
the director of the regional HIV/AIDS program, the bilateral health team, the program office, the
regional financial management office, regional legal office, and RAAO at USAID/Southern
Africa. In addition, we conducted teleconferences with health officers from missions in Angola,
Malawi, Namibia, and Zimbabwe.

Methodology
To answer the audit objectives, we conducted meetings with mission stakeholders, including
RAAO, the regional financial management office, and HIV technical teams that worked with
RAAO. These meetings included discussions on the use of waivers from competition, the role of
RAAO, and how the acquisition and assistance process would change after the missions have

6
    Public Law 97-255 codified in 31 U.S.C. 3512.


                                                                                                 8
                                                                                        Appendix I


completed IPR. In addition, we reviewed the preliminary conclusions of the IPR review that
RIG/Pretoria conducted for countries including Malawi and South Africa as part of a worldwide
review conducted by OIG. That review is still in progress as of March 12, 2013.

To establish criteria for the audit, we considered the following documents, among others:

	 Government Accountability Office, Standards for Internal Control in the Federal
   Government.

	 The August 16, 2011, and March 26, 2012, versions of ADS 220.

	 The April 10, 2009, November 18, 2011, and July 31, 2012, versions of ADS 302.

	 The March 9, 2010, November 8, 2010, September 23, 2011, March 12, 2012, and July 3,
   2012, versions of ADS 303.

	 USAID Acquisition Regulation, Section 706.3.

We then collected information from USAID/Southern Africa to identify all acquisition and
assistance actions in fiscal years 2011 and 2012 related to programs with HIV funding, the date
of these awards, and their cost ceilings. We validated this information by comparing it with
reports from the Global Acquisition and Assistance System and through discussions with USAID
technical teams. Based on this information, we accumulated the population of acquisition and
assistance actions related to HIV programs in fiscal years 2011 and 2012. We consulted OIG’s
statistician to select a statistical sample of 68 actions from this population. A statistical sample
was chosen because the supporting documentation was maintained in one location, a uniquely
identifiable population was available from which to select the sample, and noncompliance could
be projected to the population. Although we opted not to use projections in the report because
we did not identify instances of noncompliance in the sample, the results could be projected to
the population based on our sampling methodology.

To review these acquisition and assistance actions, we first determined whether the award was
made after a full and open competition. If so, we reviewed the technical evaluation committee
memorandum and negotiation memorandum to determine whether the competition was limited
and that these memorandums supported the award. If the award was not made after full and
open competition, we reviewed the justification for exception to competition and the negotiation
memorandum to determine which exception was cited, whether the documentation included all
applicable clearances and/or approvals, and whether the justification supported the use of the
exception. We also reviewed the sample actions that used the HIV waiver to determine whether
RAAO included them in its response to the agency competition advocate’s data call.

Finally, we discussed the legal authority for the HIV waiver with USAID regional legal advisors,
OIG’s associate counsel, and USAID’s Office of General Counsel.




                                                                                                  9
                                                                                     Appendix II



MANAGEMENT COMMENTS

                                                          UNITED STATES GOVERNMENT
                                                                   MEMORANDUM


March 14, 2013

MEMORANDUM

TO:           Regional Inspector General/Pretoria, Robert W. Mason

FROM:         USAID/Southern Africa Mission Director, Jeff Borns /s/

SUBJECT:      Revised Final: USAID/Southern Africa Response to Audit of USAID/Southern
              Africa’s use of Waivers From Full and Open Competition for HIV/AIDS Programs
              (Report No. 4-674-13-00X-P)

This memo revises the Mission’s March 11, 2013 response. In response to subject RIG audit,
USAID/Southern Africa submits the following General Comment and response to the subject
report. Note that this revision replaces the 3/11/13 Mission response.

General Comment: The Summary of Results, Pages 1-2 of the draft OIG report, does not
reflect the complete statement of the USAID Office of General Counsel (GC) as communicated
through emails from GC and the OIG on November 29, 2012, November 30, 2012 and
December 13, 2012, GC’s statements, taken in their totality, make it clear that in spite of the
fact that USAID doesn't have statutory competition requirements, USAID has implemented
regulations in the AIDAR, as well as policy in ADS 302 and 303, to ensure that USAID uses
competition unless there is a documented exception. This point is not clearly communicated in
the OIG’s draft report. We ask that OIG re-review the November 29, 2012, November 30, 2012
and December 13, 2012 from GC to ensure that statements attributed to GC are accurate and
complete in the final OIG report.

Recommendation 1. We recommend that USAID/Southern Africa review its procedures for
reporting exceptions to competition to the agency competition advocate and implement a
documented plan to improve the relevance, reliability, and timeliness of these reports.

Mission Response. The Mission agrees with this recommendation. The corrective action is for
RAAO to put new reporting procedures in place, as per the attached memo signed by the RAAO
Acting Officer Director. The date for the completion is March 11, 2013. No further action is
necessary.

USAID/Southern Africa respectfully requests that RIG close this recommendation based on the
supporting documentation.

                                                                                              10
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
